<html>
<title> - [H.A.S.C. No. 115-48] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2018 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FIFTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                         [H.A.S.C. No. 115-48]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2018

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

         SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES HEARING

                                   ON

                     DEPARTMENT OF THE NAVY FISCAL

                      YEAR 2018 BUDGET REQUEST FOR

                     SEAPOWER AND PROJECTION FORCES

                               __________

                              HEARING HELD
                              MAY 24, 2017

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
  
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
25-870                    WASHINGTON : 2018                 











             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                 ROBERT J. WITTMAN, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
BRADLEY BYRNE, Alabama, Vice Chair   JAMES R. LANGEVIN, Rhode Island
SCOTT DesJARLAIS, Tennessee          MADELEINE Z. BORDALLO, Guam
MIKE GALLAGHER, Wisconsin            JOHN GARAMENDI, California
DUNCAN HUNTER, California            DONALD NORCROSS, New Jersey
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
STEPHEN KNIGHT, California           A. DONALD McEACHIN, Virginia
RALPH LEE ABRAHAM, Louisiana
                Dave Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Jodi Brignola, Clerk 
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     2
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Seapower and Projection Forces.......     1

                               WITNESSES

Stiller, Allison, Performing the Duties of Assistant Secretary of 
  Defense for Research, Development, and Acquisition; accompanied 
  by LtGen Robert S. Walsh, USMC, Deputy Commandant for Combat 
  Development and Integration, and VADM William K. Lescher, USN, 
  Deputy Chief of Naval Operations for Integration of Resources 
  and Capabilities...............................................     5

                                APPENDIX

Prepared Statements:

    Stiller, Allison, joint with LtGen Robert S. Walsh and VADM 
      William K. Lescher.........................................    39
    Wittman, Hon. Robert J.......................................    37

Documents Submitted for the Record:

    Force Structure Assessment Executive Summary.................    67
    February 9, 2017, Accelerated Fleet Plan.....................    71
    ``The Future Navy,'' Admiral Richardson May 17, 2017, memo...    86

Witness Responses to Questions Asked During the Hearing:

    Mr. Langevin.................................................    97

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]





DEPARTMENT OF THE NAVY FISCAL YEAR 2018 BUDGET REQUEST FOR SEAPOWER AND 
                           PROJECTION FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                           Washington, DC, Wednesday, May 24, 2017.
    The subcommittee met, pursuant to call, at 2:08 p.m., in 
room 2212, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. I will call to order the Subcommittee on 
Seapower and Projection Forces of the Committee on Armed 
Services. And today, we meet to discuss the Department of 
Navy's fiscal year 2018 budget request.
    Appearing before us today to discuss the important topic 
are three esteemed Navy witnesses. First, we have Ms. Allison 
Stiller, performing the duties of Assistant Secretary of 
Defense, Research Development and Acquisition.
    We also have Vice Admiral William K. Lescher, Deputy Chief 
of Naval Operations for Integration of Resources and 
Capabilities; and Lieutenant General Robert S. Walsh, Deputy 
Commandant of Combat Development and Integration.
    And I want to thank all of you for your service, and just 
as important, thank you for appearing before this subcommittee 
on the fiscal year 2018 budget request.
    Last week, the Chief of Naval Operations [CNO], Admiral 
Richardson, laid out a bold vision for the Navy. He indicated, 
``Both China and Russia are able to compete on a global scale, 
in all domains, and at competitive speed.'' In response to this 
increased global pressure, he stated, ``The future fleet must 
be timely--we need this more powerful fleet in the 2020s, not 
the 2040s.'' Without any reservation, I believe that the CNO is 
correct. Unfortunately, the fiscal year 2018 budget request 
does not support the vision of the CNO, nor of this 
subcommittee.
    While I do not object with the budget's emphasis on current 
readiness, I believe that there is a high degree of naivete in 
the area of ship construction. We must start now, not in 2019. 
Some believe that ship construction is like a spigot that can 
be turned off and on. I believe that there are those in defense 
budgeting that advocate for such an approach.
    In ship construction, though, we know one thing for 
certain: Ship construction is a long game and requires steady 
funding to achieve steady progress. Unfortunately, I do not see 
steady progress towards fulfilling the goal of attaining a 355-
ship Navy. The budget request of only 8 ships does little to 
build towards a 355-ship Navy. We have hot production lines 
ready to add more work, but the call to duty has not been 
sounded. It is time to get serious and match our peer 
competitors with aggressive ship construction initiatives.
    As to the specific concerns with the Navy request, building 
1 aircraft carrier every 5 years will never allow us to reach 
12 aircraft carriers; building 2 attack submarines a year will 
result in a submarine reduction in force by 20 percent in 10 
years; and building only 1 LCS [littoral combat ship] will 
result in massive layoffs at both Marinette and Mobile in the 
States of Wisconsin and Alabama. These are not acceptable 
outcomes.
    As the Marine Corps, I am pleased that this committee has 
supported--as to the Marine Corps, excuse me, I am pleased that 
this committee supported the authorization of two more San 
Antonio-class amphibious ships in the last 2 years. However, I 
hold some concerns in respect to conducting amphibious 
operations in a contested environment. As our adversaries 
become more capable, our Marine Corps may need a bold new 
vision to accomplish future missions.
    And I know, in speaking with General Walsh, that they are 
well on track to do that and looking at all the opportunities 
that are out there, using every platform at their avail, but it 
is our duty to make sure that we find ways to make sure we 
enable and allow for those visions to be accomplished.
    This vision may require a change to our legacy forces. 
Expansion of aviation projection, longer range connectors, and 
a lighter amphibious capability are all desired attributes of a 
more capable expeditionary force structure. Unfortunately, I 
see little of this in the budget request to change our current 
trajectory.
    I am reminded of the words of John F. Kennedy himself, a 
proud Navy officer, when he said that history has taught us 
that control of the seas means security. Control of the seas 
can mean peace. Control of the seas can mean victory. The 
United States must control the seas if it is to protect your 
security. Ladies and gentlemen, it is time that our Nation wake 
up and seize control of the seas.
    I would now like to turn to our ranking member, Joe 
Courtney, for any remarks that he may have.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 37.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Chairman.
    And again, I want to thank the three distinguished 
witnesses that are here today to discuss the fiscal year 2018 
budget request for the Department of the Navy and the Marine 
Corps.
    Before we get into the substance of the hearing, I think it 
is important to remember the context in which we are 
considering the budget request submitted yesterday. In December 
of last year, the Navy, under President Obama and Secretary 
Mabus, released an updated Force Structure Assessment [FSA] 
that laid out a requirement for increasing the fleet from 308 
ships to 355. Among other factors, the FSA noted that increased 
operations, lengthened deployments, and changing conditions 
around the globe necessitated this boost.
    Then, in the early days of the Trump administration, the 
Navy submitted an Accelerated Fleet Plan that, in the words of 
Acting Navy Secretary Sean Stackley, stated: It offers a first 
step towards a framework to develop the strategic guidance and 
identify the investments needed to reinvigorate our naval 
forces. That plan identified 29 additional ships that the Navy 
found could be accelerated in support of the larger fleet 
identified in the FSA.
    And just last week, the Chief of Naval Operations, John 
Richardson, released a white paper noting the urgent need to 
boost the fleet as quickly as possible. As he concludes in the 
paper, time is of the essence. I agree and, like many of my 
colleagues on this panel, I have eagerly awaited more details 
on how the Trump administration would move forward on the 
highly bipartisan push for a larger and more capable Navy 
fleet.
    Unfortunately, the shipbuilding budget released yesterday 
reflects none of these inputs. Instead, it requests funding for 
only 8 ships and submarines, the same level as planned by the 
former Obama administration plan prior to the December FSA, 
lower than the 11 ships that we just voted on in the 2017 
Omnibus Appropriations Act that we passed out of Congress just 
this last month on a bipartisan basis, and lower than the 12 
ships that the Navy identified in its Accelerated Fleet Plan 
for 2018.
    In other words, the Trump administration has proposed a 
300-ship budget for a 355-ship plan. This proposal really begs 
the question, what is the administration waiting for? The table 
was set for this administration to take the work that had been 
done for years during the prior administration to hit the 
ground running towards a larger fleet.
    While I understand the Defense Department is planning a 
wider review of its defense strategy that will guide future 
investments, I can think of no element of the Department that 
has as solid a foundation to start from than shipbuilding. A 
year lost in shipbuilding can never be regained, and, 
unfortunately, that is what this budget proposes.
    Shipbuilding, as the chairman stated, is a long game that 
relies on certainty in the Navy's plans and intentions. Nothing 
in this budget, however, provides any clarity on where this 
administration intends to go with the buildup of the fleet. 
There is no 30-year shipbuilding plan that was submitted 
yesterday. And there was no FYDP, there was no Future Years 
Defense Plan, that defense officials so far have just simply 
named as a placeholder.
    Congress, industry, and the American people are left 
guessing as to the way ahead. For some shipyards, this could be 
a make-or-break issue for them, and we need to tread carefully 
to ensure that we have a well-rounded industrial base in the 
future.
    We have a lot of hard work ahead in the next few weeks to 
craft our 2018 defense authorization bill and an extremely 
truncated timeline. I hope that we will use the modest 
shipbuilding request submitted to us yesterday as a floor and 
not as a ceiling as we look for ways to further support the 
Navy's fleet expansion and the industrial base that we will 
need to support it.
    That is not to say that there are not elements in this 
budget that I strongly support. One area of welcome progress is 
in our undersea forces. In addition to fully funding two attack 
submarines in 2018, as planned in the 2014 multiyear contract, 
the budget supports a long-sought priority of mine, which is 
the restoration of a second attack sub in 2021, making sure 
that the two-a-year build rate will be all the way through the 
next block contract, Block V contract. That means we can expect 
at least 10 submarines in that next block, while we look for 
additional opportunities to increase that rate where the 
capacity exists to meet the increased fleet requirements of the 
FSA.
    In addition to supporting continued development and early 
production on the Columbia-class SSBN [ballistic missile 
submarine], the budget reflects the Navy's use of key 
authorities that we provided through the National Sea-Based 
Deterrence Fund. I note that nearly $100 million is allocated 
in this budget for continuous production of missile tubes and 
advanced construction activities in the first Columbia-class 
boomer, the SSBN-826.
    As we well know, which is we are the committee that drafted 
and created the National Sea-Based Deterrence Fund, the 
authorities in the NSBDF have been projected to save hundreds 
of millions of dollars if fully utilized. And I look forward to 
hearing more from the Navy about how they intend to use those 
authorities in 2018 and beyond.
    I also strongly support the increased focus on restoring 
readiness and operational availability of our fleet through 
expanding funding for the ship depot maintenance. This is a 
topic that Chairman Wittman and I recently publicly discussed 
in a forum together and one that is absolutely critical to 
ensuring that we can fully utilize the fleet we have today as 
we build towards the future.
    It appears that the budget intends to leverage capacity in 
the private yards to support maintenance priorities as well as 
focus investment in our shipyard capacity and infrastructure. 
The backlog in ship availabilities is immense, and we clearly 
need to do more to address this problem in 2018 and beyond.
    Finally, so much of what we do in the 2018 budget will 
depend on how we address the Sword of Damocles that is hanging 
over the entire process: the Budget Control Act caps, and the 
threat of sequestration. Much has been said about lifting the 
defense sequester at the expense of non-defense spending, such 
as STEM [science, technology, engineering, and mathematics] 
education and job training funding outside of the Pentagon. I 
can think of no worse approach for the overall security and 
well-being of our Nation.
    We cannot expect to embark on the buildup of our ships, 
aircraft, or other advanced technologies if we are at the same 
time gutting education, workforce development, skills training, 
and other efforts at closing the job-skill mismatch that is 
rampant in defense manufacturing all across the country. The 
only way we are going to extract ourselves from our current 
budget quagmire is through a balanced approach that ensures 
that we meet all the needs of our Nation.
    I yield back.
    Mr. Wittman. Thank you, Mr. Courtney. Thanks for those 
opening statement words. And it is good to know that I think we 
are both on the same page about what the course is ahead.
    So with that, Ms. Stiller, I will go to you for the opening 
statement that I know that you will present for both the Navy 
and Marine Corps.

    STATEMENT OF ALLISON STILLER, PERFORMING THE DUTIES OF 
 ASSISTANT SECRETARY OF DEFENSE FOR RESEARCH, DEVELOPMENT, AND 
ACQUISITION; ACCOMPANIED BY LTGEN ROBERT S. WALSH, USMC, DEPUTY 
  COMMANDANT FOR COMBAT DEVELOPMENT AND INTEGRATION, AND VADM 
 WILLIAM K. LESCHER, USN, DEPUTY CHIEF OF NAVAL OPERATIONS FOR 
           INTEGRATION OF RESOURCES AND CAPABILITIES

    Ms. Stiller. Chairman Wittman, Ranking Member Courtney, 
distinguished members of the subcommittee----
    Mr. Wittman. Ms. Stiller, if you can either pull the mike 
closer to you or turn it on.
    Ms. Stiller. Well, I turned it on. I will talk loud.
    Mr. Wittman. Okay. We have got to make sure we have it on 
the microphone.
    Ms. Stiller. Okay. I will start this way.
    Chairman Wittman, Ranking Member Courtney, distinguished 
members of the subcommittee, thank you for the opportunity to 
appear before you today to address the Department of the Navy's 
acquisition programs. I am joined this afternoon by Lieutenant 
General Bob Walsh, Deputy Commandant for Combat Development and 
Integration; and Vice Admiral Bill Lescher, Deputy Chief of 
Naval Operations for Integration of Capabilities and Resources.
    I request that our written statement be included in the 
record.
    Mr. Wittman. So ordered.
    Ms. Stiller. On behalf of our Navy and Marine Corps, we 
want to thank this subcommittee for your strong support and the 
fiscal year 2017 defense authorization and appropriations 
bills. Not only has Congress supported our request, but the 
committee increased funding for many of our critical programs. 
We are committed to making good on that investment and to do so 
in the most fiscally responsible manner possible, to provide 
the ships, aircraft, vehicles, and weapons that are needed for 
our men and women in uniform to be successful.
    We have continued to leverage every tool available to drive 
down cost. We have tightened requirements, maximized 
competition, capitalized on multiyear and block-buy 
procurements, explored cross-program efficiencies, and attacked 
our cost of doing business so that more of our resources can be 
dedicated to warfighting capability.
    Global activities over the last year have made it clear 
that security challenges are intensifying at an increasingly 
rapid pace. To remain competitive, it is imperative that we 
continuously adapt to the emerging security environment and to 
do so with a sense of urgency. This requires us to work closely 
with Congress to return budget stability and predictability to 
the Department, which necessitates increasing defense caps 
under the Budget Control Act.
    Our 2018 President's budget [PB] submission is governed by 
SECDEF's [Secretary of Defense's] priorities to improve 
warfighting readiness by addressing pressing programmatic 
shortfalls that have accrued from 15 years of wartime 
operational tempo. The budget maintains the operational 
effectiveness of our current force while also building a bridge 
to growing the future force, starting in 2019. Over the past 
year, 11 ships were delivered and an additional 12 ships were 
christened. One of the ships delivered this year was DDG 1000 
[guided missile destroyer], USS Zumwalt, a truly 
transformational platform. And today, CVN-78, Gerald R. Ford, 
our newest aircraft carrier, is at sea on her acceptance 
trials.
    On the aviation side, over this last year we delivered over 
130 manned aircraft and 120 unmanned aircraft. Of note, our P-
8A successfully completed flight testing with a capability that 
will revolutionize air-based antisubmarine warfare. And we 
designated our carrier-based unmanned tanker as an accelerated 
acquisition program.
    On the Marine Corps side, the Amphibious Combat Vehicle 
Program began delivery of vehicles this spring, with a total of 
32 vehicles expected to be delivered by the end of the year. 
And last month, we conducted a ship-to-shore maneuver exercise, 
which demonstrated new technologies that could shape future 
amphibious operations.
    I would like to briefly discuss a couple of items posed by 
our budget request. First, we have requested multiyear 
procurement authority for the fiscal year 2018 to fiscal year 
2022 DDG-51 Flight III buy. We have a handshake agreement with 
Huntington Ingalls to introduce the Flight III capability on 
their fiscal year 2017 ship.
    We are also requesting multiyear procurement authority for 
the fiscal year 2019 to fiscal year 2023 Virginia class, which 
will introduce the Virginia payload capability.
    Second, we have made a couple of adjustments to our 5-year 
shipbuilding plan. We added a Virginia-class submarine in 
fiscal year 2021, and we have deferred the start of the Frigate 
Program from fiscal year 2019 to fiscal year 2020 while we 
revisit the ship's requirements.
    Our small surface combatant requirement remains at 52 
ships, and we desire to transition to the frigate as soon as 
possible. However, the administration recognizes the 
criticality of our industrial base and supports funding a 
second LCS in fiscal year 2018. We note that our shipbuilding 
plan beyond fiscal year 2018 may be adjusted in our PB-19 
submission as a result of the defense strategic review that we 
will complete later this summer, consistent with SECDEF's 
fiscal year 2019 priority to grow a larger and more lethal 
force.
    In summary, the Navy's 2018 budget is focused on improving 
the wholeness of our current forces. We greatly appreciate the 
subcommittee's strong and consistent support of your sailors 
and marines.
    Mr. Chairman, thank you for the opportunity to appear 
before you today, and we look forward to answering your 
questions.
    [The joint prepared statement of Ms. Stiller, General 
Walsh, and Admiral Lescher can be found in the Appendix on page 
39.]
    Mr. Wittman. Ms. Stiller, thank you. Vice Admiral Lescher, 
Lieutenant General Walsh, thank you so much for joining us 
today.
    I wanted to begin. I am going to just ask a single question 
and I want to go to the ranking member and our other members, 
because we have a long list of members that want to ask 
questions.
    So, Lieutenant General Walsh, I want to get your 
perspective on where the Marine Corps is today. If we look at 
and hear the assessment of where the Marine Corps is, we look 
at the force today, and it is a heavier force and a less 
expeditionary force than it was 20 years ago.
    And I think in the contested environment that we face, some 
of the things that the Marine Corps has to do is to look at the 
weight of amphibious forces, looking at the capability of 
connectors, making sure we are optimizing that capability, 
making sure too that in all instances we can project power as a 
highly maneuverable force in a contested environment. I think 
that those are things that we absolutely have to do today.
    And I just want to get your perspective on what changes are 
being made to expand our amphibious connectors and how we are 
going to be able to project power and what capabilities we will 
have in a contested environment. And how is the Marine Corps 
leveraging what I believe for the Marine Corps is a renaissance 
in aviation capabilities in amphibious operations?
    General Walsh. Thank you, Chairman, for that question and 
the opportunity to talk to you here today and all the support 
the committee has done, particularly around LPD-28 and 29 
[amphibious transport dock ships] and that support.
    Great question. And I think, you know, as we look at where 
we have been, we have been focused really for the last 15, 16 
years on the ground in Iraq and Afghanistan. So this 
renaissance, you know, as you call it, in aviation, aviation 
has been moving out, and one of the things that the Commandant 
has us focused on is developing a fifth-generation Marine 
Corps. And as we look at that fifth-generation Marine Corps, 
there are pieces and places inside the Marine Corps we are 
developing that fifth-generation capability.
    Last year, we conducted really about an 18-month force 
structure assessment of the entire Marine Corps and looked at 
where we have gaps and seams, where we are not set up for the 
future battlefield. As we look at the threats in the future--
and the threat drives our concepts and drives our 
capabilities--the threat we are seeing is not just focused on 
ISIL [Islamic State of Iraq and the Levant], it is not just 
focused on Taliban, it is focused on peer adversaries and how 
are we going to operate in that environment.
    As we looked at that force, the desire to lighten up, as 
you talk about, on our amphibious force was driven by a lot of 
the IED [improvised explosive device] threats that we have seen 
on the ground in Iraq and Afghanistan. So it is easy to say 
that we need to lighten up. We can't look like the Army. We are 
not the Army. We come from the sea; we have to be a light 
expedition force if we are deployed. But at the same time, when 
we get ashore, if it is a contested environment, we are going 
to have to be able to slug it out and be able to operate 
against peer adversaries. We do that in a lot of ways as a 
lighter force with maneuver.
    So aviation, as you talk about, brings us a lot of maneuver 
capability. But yet, when we maneuver and those marines go into 
close contact, they are going to have to be able to fight it 
out and, hopefully, in a maneuver warfare fashion where we are 
not going tank on tank against large enemy formations. That is 
not who we are; we are not the Army.
    So we are looking at exactly what you are talking about. We 
have done a number of experiments and assessments of how do we 
lighten up. One of the things the Commandant had us do last 
year was to purchase 144 utility vehicles that can fit inside--
MRZRs we are calling them--that fit inside the MV-22 that are 
expanding our range to be able to go longer distances.
    While we did that, just at this advanced naval technology 
experiment that we just did, we were looking at how we can 
lighten that particular capability in an electric capability, 
that lightens that load to be able to go further, bringing a 
network-on-the-move capability.
    So as we deploy the force and we start to distribute more, 
we have got to be able to bring the fires with them and the C2 
[command and control] capability, so those distributed forces 
that can operate in a lighter way have those capabilities to 
bear.
    So I think we are going after that problem, because the 
number of ships we have is limited. I think we are on a fairly 
good plan on the amphib side. As you talked about, we have got 
hot lines.
    So, moving forward, we have got good ships, but we have got 
to be good partners with the Navy, that we have got to keep an 
expeditionary mindset that we have walked away from a little 
bit in Iraq and Afghanistan. So the focus is on how do we 
lighten up, but at the same time when we are buying smaller 
vehicles in a foot-mobile Marine Corps, how do we bring that 
firepower to bear as we go forward. No question about it that 
our aviation capability brings us a lot of that.
    Expanding the connectors, we are looking at that very hard. 
One of the things we are looking at with Office of Naval 
Research that we have got a project going on right now is to 
increase the speed of our current amphibious combat vehicle 
capability. That is the number one line of effort.
    The second line of effort is to look at other connectors 
that could help us in that way, things like sleds that we could 
put the amphibious combat vehicles on, move them ashore from 
further distances and faster, along with different connectors 
that can help us along those lines, such as joint high-speed 
vessel, those kind of different connector capabilities where we 
can bring more and faster.
    And the third line of effort that we have looked at is 
looking at that problem and how do we get ship to shore in a 
different way. With the technologies that are out there, and 
just this last experiment that Ms. Stiller mentioned out of 
Camp Pendleton.
    We had more than 50 different dynamic capabilities that we 
experimented with that came from across industry and across the 
naval warfare centers that brought in new capabilities that are 
going to allow us to be able to sense the battle space, see 
where the enemy is, where it is not, be able to deceive the 
enemy, understand that battle space a lot better, and be able 
to maneuver more quickly ashore.
    So I think we are getting after this problem pretty hard 
and I think, if anything, we probably owe some more discussion 
to this in detail with you in follow-on discussions.
    Mr. Wittman. Very good. Thank you, Lieutenant General 
Walsh. We now go to Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. Ms. Stiller, thank 
you for noting in your testimony that the budget calls for sort 
of filling in that 2021 dip in the Virginia-class production 
and making sure that the Block V will be at least two a year.
    You know, even since January, again, we have had combatant 
commanders testifying before Armed Services, such as Admiral 
Harris, again, raising the flag about the need for, you know, 
addressing the dip, the larger dip in submarine fleet in the 
2020s. And Secretary Stackley, in terms of his Accelerated 
Fleet Plan, had actually suggested a build rate of three subs a 
year in 2022 and 2023, which are, again, part of that Block V 
timespan.
    So I guess the question I would ask you is, would you 
consider, you know, the 10 subs outlined in the Block V to be a 
starting point in your talks about the next contract, and would 
your proposal for additional submarines to be added beyond the 
2-a-year rate should the capacity in industry and budget 
resources become available; and is there anything we can to in 
our subcommittee in terms of authorities to enable that?
    Ms. Stiller. Yes, sir. In the past, we have had the ability 
in a multiyear contract to also ask for option pricing for 
additional ships that may not get the full benefit of a 
multiyear, but obviously benefit from having the multiyear 
pricing.
    So we can add that flexibility if we see as we build our 
fiscal year 2019 budget that additional submarines are going to 
be added in the later years. As you noted, the fiscal year 2022 
and 2023 are the years we are not building a Columbia. So those 
are years that when we looked at the future fleet plan we 
identified as that would be an opportunity to get to the three 
a year.
    We also need to make sure that we are working closely with 
industry, both Electric Boat and Huntington Ingalls, to make 
sure that we understand all of the facilities and manpower 
required to get to that.
    But yes, sir, we have the tools in our toolkit to add 
option pricing on multiyears, which, as we can see, as I 
pointed out, that one's a fiscal year 2019 to 2023, so we do 
have a little bit of time as the budget starts to crystallize 
and we see where we are going to be from a top-line perspective 
and whether we can get there.
    And if it looks like we are going to be able to and it 
makes sense, we can have a dialogue with the committee to 
increase the number in the multiyear as well. That is an 
option.
    Mr. Courtney. Thank you. You also talked about the use of 
continuous production authority on missile tube components for 
the Columbia class, and also some funding for advanced 
construction funds on the first submarine, which, again, were 
authorities that this subcommittee created in the National Sea-
Based Deterrence Fund. Again, there are a couple other 
authorities that we had, you know, inserted into that portion 
of the law.
    And last year was the first year, as you know, that money 
started flowing through the fund. So it is not just an 
accounting device. I mean, it is actually a functioning program 
now.
    And I was just sort of wondering whether, again, you could 
sort of elaborate in terms of the Department's intentions in 
terms of utilizing those authorities we gave?
    Ms. Stiller. We absolutely intend to utilize the continuous 
production of missile tube authority as well as the advanced 
construction. And we continue to look at what other authorities 
we might need, and we would come back to the committee if we 
feel like we need additional authorities.
    This year we don't see that, but we have put into place--as 
you know, we have been looking across the submarine programs, 
both Virginia and Columbia, to see were there synergies there. 
We have expanded that now to also include looking at the 
aircraft carriers.
    So we are looking at our nuclear force to see are there 
opportunities. We haven't completed all that work yet, and so 
we may be coming back in a subsequent year, seeing that we 
might find other authorities that would also cross into the 
aircraft carrier as well. Hopefully--well, presumably. I am not 
going to come back without a business case that is compelling 
that would drive cost down across the platforms.
    Mr. Courtney. Right. Like shopping at Costco.
    Ms. Stiller. Yes, sir.
    Mr. Courtney. One last question, which is in your 
testimony, you stated that the Navy is supporting the Coast 
Guard's efforts to responsibly and affordably recapitalize the 
heavy polar icebreaker fleet and that the Coast Guard expects 
delivery of the first icebreaker as early as 2023.
    The President actually was in my district just last week at 
the Coast Guard Academy and threw his support behind the 
recapitalization of the icebreaker fleet. I don't, however, see 
any funding in the Navy's budget for this effort, and the Coast 
Guard budget seems to allocate only $19 million for the 
program, which it is my understanding is far lower than the 
levels needed to continue towards advanced procurement and long 
lead efforts on the first icebreaker.
    Can you elaborate on how the Navy is working with the Coast 
Guard to move this program forward, and what can we do in our 
2018 bill to support the icebreaker program?
    Ms. Stiller. Yes, sir. We have signed two memorandum of 
agreements, one with the Coast Guard and the Navy and one at 
the Navy/Department of Homeland Security level. We have put 
together an integrated team, integrated program team to run the 
program with the Coast Guard. We sit on their review boards as 
the design is going through.
    And as they have been finalizing requirements and having 
that debate on cost versus requirements, we are right there at 
the table trying to provide good suggestions, what we have 
learned lessons in the past. So it has been an excellent 
exchange. We have Navy folks that are on the team permanently. 
And then I sit on an oversight board with the Vice Commandant 
of the Coast Guard. So it is a very good working relationship.
    As for funding, funding is not included in the Navy's 
budget, because it is the Coast Guard's mission, by law, to 
provide icebreaking capability. There is money in their budget, 
I am not exactly sure of the amount, but that is to continue 
these studies that are ongoing. There is $150 million that the 
Congress appropriated last year of shipbuilding construction 
Navy [SCN] money that is available; and as they get into detail 
design, that money can be used for detail design.
    We can't use SCN money for R&D [research and development] 
type of activities. But the Navy doesn't intend to program for 
the icebreaker. As you know, we have challenges and areas where 
we want to grow the fleet, and it is more appropriately funded 
in the Coast Guard budget.
    Mr. Courtney. Thank you. I yield back.
    Mr. Wittman. Thank you, Mr. Courtney. We will now go to Mr. 
Byrne.
    Mr. Byrne. Thank you, Mr. Chairman. Ms. Stiller, thank you 
for being here today, and I appreciate your announcement in 
your opening remarks that the administration is changing its 
request on the LCS program from one to two. I would like to 
follow up on that if you don't mind.
    We all read with great interest the CNO's white paper that 
highlights that we need to take advantage of our hot production 
lines, and you know as well as I do how hot the production 
lines are on LCS.
    Earlier this month, we heard from Admiral Neagley that the 
optimal number for the LCS is three. Now, as far as cost and 
schedule efficiency, that seems to work pretty well. And we are 
still working towards 52 small surface combatants, including 
the transition to the frigate, and a 350-ship fleet. Why not 
continue to leverage this production capacity by going to 
three?
    Ms. Stiller. Well, yes, sir. And the way we are looking at 
how we get from the LCS to the frigate while looking at the 
industrial base, while three is the most efficient, I am 
looking at it more across the fiscal year 2017 and fiscal year 
2018. So if you have got three ships that were appropriated in 
2017 and the two and the eight that we are talking about to be 
discussed, obviously, until the 2018 budget is passed, that is 
five to go across the two.
    Within the yards right now, there are 13 ships that are in 
phases of construction. And we would certainly work with both 
shipyards to figure out what is the optimal build strategy 
during this time where we are trying to transition, but keep 
the industrial base there.
    So I agree with you. We are not at their most efficient 
level, but we are also greater than minimum sustaining rate. 
And so we will work with the yards to make sure that we are 
mitigating impacts to the industrial base as we move forward.
    Mr. Byrne. I know I don't have to tell you this, but this 
is a highly trained, highly skilled workforce, and they have 
been working together long enough now to where they have gotten 
efficiencies down and costs down, which is music to our ears up 
here. We want to try to take advantage of that, and I know you 
and I have talked about this before. This is not a spigot. When 
we turn even part of that spigot off, all these highly trained 
people that can get jobs in this economy literally all over the 
country, they are gone.
    And trying to rebuild that technical capability at the 
level we are going to need to build it back to meet your 52-
ship requirement is going to be difficult and I think is going 
to draw out your timeline, and I am pretty sure it is going to 
increase the expense of the ships in the future. So I know you 
already know that. I just want to make sure you and I have 
communicated about that.
    I want to go to the timing for the transition to the 
frigate. Now, we went through this. Three years ago, we went 
through this study that the Navy had from the Small Surface 
Combatant Task Force, and they called for the transition to the 
frigate in 2019. Now, obviously, if we can go ahead and 
transition to 2019, that makes the job of trying to make sure 
that we have got these hot lines still hot enough and being 
able to do what we want to do a lot easier. Have we amended 
that study to change it from 2019 to 2020?
    Ms. Stiller. Sir, I am going to start this, then I am going 
to defer to Admiral Lescher to talk to you a little bit more 
about the requirements.
    Mr. Byrne. Sure.
    Ms. Stiller. But as we have been going through our fleet, 
as we are watching what is happening around the world, yes, we 
did have a frigate plan to start in 2019. The requirements 
community said no, they want to take another look at that, 
especially in the local air defense area.
    And I will turn it over to Admiral Lescher here in a 
minute. And so while they are combing through their 
deliberations, we, again, will look at making sure that we are 
keeping that LCS line and the industrial base there so that we 
can get to the frigate in fiscal year 2020. But I will defer to 
Admiral Lescher on the requirements.
    Mr. Byrne. Before you do that, Admiral, you have not 
amended the plan itself?
    Ms. Stiller. I am sorry, sir. We have moved the frigate 
start to fiscal year 2020 in this budget.
    Mr. Byrne. But the plan that was put forward in 2014 has 
not been formally amended?
    Ms. Stiller. We are in the process right now of looking 
at--the requirements community is in the process right now of 
relooking at requirements, based on the threat today.
    Mr. Byrne. I am sorry, Admiral.
    Admiral Lescher. No, sir, absolutely. So, very briefly, the 
requirements evaluation team for the frigate is working very 
hard right now to take a look at the use of the frigate in 
distributed maritime operations, the distributed lethality 
concept which will be a slightly different requirement set for 
that ship.
    So, as Allison indicated----
    Mr. Byrne. That is the missile capability?
    Admiral Lescher. It is a combination of an aviation warfare 
capability, increased survivability, and looking at electronic 
warfare.
    Concurrent with that, the OTH [over-the-horizon] missile is 
something that is part of our cruise missile strategy as well, 
to bring that on. But that team is working to really present 
their recommendations in the building end of this month and 
start briefing that up to the Chief of Naval Operations and the 
Secretary.
    Mr. Byrne. Let me register one other concern that I have, 
and I know this is not something that is set in stone, but 
there is a figure out there for the cost cap for the frigate at 
$1.2 billion for a ship that we are making now for about $500 
million. Now, it is going to cost more when you go up, we get 
that.
    I am a little concerned that we are--and I know this can 
change. I understand you may want to talk about lowering that 
cap. I am a little afraid that we have got it so high that, A, 
we are really just building another destroyer; and B, this is 
something we won't be able to afford because we get it so high 
that we have designed a program that we are going to come in 
here and my colleagues are going to say, we can't do that.
    Admiral Lescher. Yes, sir, I think you are absolutely 
right. And CNO, in fact, testified this morning before the SAC-
D [Senate Appropriations Subcommittee on Defense] similarly 
that that figure is too high. He believes that. So I think you 
are absolutely right in terms of what is really a placeholder 
figure in the fiscal year 2020 column right now, and that cost 
has to come down.
    Mr. Byrne. I want to thank both of you. I look forward to 
working with you. I know there is a lot of work left for you to 
do, and we want to be working with you as you go through this, 
but I certainly appreciate your opening statement and the 
addition of another LCS.
    And I yield back.
    Mr. Wittman. Thank you, Mr. Byrne. We are going to now go 
to Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and thank you to all 
for being here today.
    As you know, the budget submission contained no fiscal year 
2018 funding for the Expeditionary Sea Base, ESB, Program, 
despite the fact that the Navy identified that requirement to 
double the force from three to six ships.
    So could you help us understand a little bit better about 
what was driving that, the budget or a change in strategy?
    Admiral Lescher. I will take a stab at that, ma'am. So you 
are absolutely right in terms of the 2016 Force Structure 
Assessment called for the increased requirement that you 
highlighted. What you see in terms of the fiscal year 2018 
budget and the eight ships that are in there is entirely 
consistent with the broader direction that the entire 
Department of Defense has been directed to execute, which is 
for fiscal year 2017 really getting after those critical 
readiness efforts; fiscal year 2018, building on the readiness 
and addressing pressing shortfalls; and then fiscal year 2019 
is the grow capacity, grow to a larger, more capable, more 
lethal Navy.
    And so that is essentially the construct, SECDEF Mattis' 
three-phase campaign plan to get at the broader capacity, the 
greater capacity that you outlined.
    Mrs. Davis. There are some current overriding concerns 
about that, though. And I am just wondering about the budget in 
general and what was presented and what your greatest concerns 
are. Where does this one go, I guess, along with some other 
ones?
    Admiral Lescher. Ma'am, again, that is a great question. I 
think we have to work collectively with the committee and the 
Navy and broadly to articulate the case, to make the case for 
the higher defense caps that are going to enable that vision. 
To grow to the larger, more capable, more lethal Navy clearly 
is not executable at the PB 2018 funding levels, at the fiscal 
year 2018 funding levels. So collectively working to get those 
defense caps raised is fundamental to getting there.
    Mrs. Davis. Anybody else want to comment on that? Would you 
like to comment, Deputy Stiller?
    Ms. Stiller. I agree with Admiral Lescher. I mean, as he 
said, the fiscal year 2018 budget was really looking at getting 
our current fleet whole. And as we go into fiscal year 2019 
budget, we are going to be looking at growing the force. But we 
are going to be faced with--we are going to need to understand 
how we are going to do that, and looking forward to the defense 
caps to be raised.
    Mrs. Davis. Thank you.
    General Walsh. I guess just to add, Congresswoman, as we 
get that ship out there, I think right now, I think a lot of us 
are looking at, we had the MLP [mobile landing platform], the 
ESB out there--or the ESD [expeditionary transport dock].
    Once we start to see the ESB get out there, I think we will 
start getting our hands on that ship and start to see what we 
are going to be able to use it for as an afloat staging base 
and how we may use it different.
    I know the Commandant is very interested in getting the 
next one into the Mediterranean. And so once I think we start 
using it out in the fleet in the operating forces, we will 
start getting much more comfortable in how we are going to be 
able to operate with that ship.
    Admiral Lescher. If I could add onto that very briefly, 
before coming to the Pentagon this time, I was a 5th Fleet 
Expeditionary Strike Group commander. And the USS Ponce, the 
interim afloat forward staging base, was one of my ships. And 
what the ESB and the afloat forward staging base brings to that 
theatre more broadly is really critical. I mean, those will be 
very important ships, as reflected in the Force Structure 
Assessment you saw that grew the requirement in recognition of 
what they bring to the fight.
    Mrs. Davis. Okay, thank you very much.
    If I could just speak a little bit about the unmanned 
vessels and what you are predicting, what kind of requirements 
should we be looking at, and do you plan to incorporate them 
into the fleet architecture?
    Admiral Lescher. I will take a stab at starting with that. 
You know, across the unmanned activity, more broadly, air and 
vessels, but specifically to the vessels, absolutely. This is 
something that you will hear our leadership, the Secretary of 
the Navy and the CNO speak very urgently about, about the need 
to bring this capability in.
    So particularly in the unmanned underwater vehicles, you 
are familiar, there is a family from small to extra large that 
are executing a set of missions that are key to enabling the 
power of our submarines more broadly.
    So we feel a real sense of urgency to get after that. And 
we could talk perhaps about some of the missions in a closed 
forum that are particularly compelling. But we feel a sense to 
both enable and increase the projection, the power projection, 
of the manned systems. We need to learn about the integration 
of manned and unmanned. We feel a sense of urgency to get after 
that.
    And I would say more broadly on the aviation side, when we 
talk about MQ-25, it also has a compelling reason to arrest the 
fatigue life consumption of our Hornets doing that mission. So 
broadly across all of those unmanned type systems.
    And to your specific questions, in terms of the future 
fleet architecture and CONOPS [concept of operations], 
absolutely. It will be leveraging unmanned and artificial 
intelligence.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mrs. Davis.
    We will now go to Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman, and thank you for 
your opening statement. If there is a better argument for the 
need to move aggressively to 355 ships, I have yet to hear it. 
And I really appreciate you articulating it.
    I also appreciate, Ms. Stiller, your announcement that you 
support two LCSs this year. I think that is a move in the right 
direction. I remain concerned, however, I echo Mr. Byrne's 
concerns that two ships will have devastating impacts on the 
shipyards. We went back and forth with the Navy on this a 
couple weeks ago, and they seemed to suggest that three was the 
minimum required to maintain a hot production line.
    And so just so I have it clear, you are not disagreeing 
with the Navy's assessment that three is the minimum?
    Ms. Stiller. Three is the most efficient to execute within 
the yards. There is a minimum sustaining rate, which I believe 
we are well above, but we are somewhere between minimum 
sustaining and most efficient.
    Mr. Gallagher. You talked about----
    Ms. Stiller. Five across the 2 years. I am sorry.
    Mr. Gallagher. No, thank you. You talked about mitigating 
the impact if you went from three to two. What would that be, 
what sort of mitigation?
    Ms. Stiller. What we need to look at across both yards is 
how are they executing, where are they on their delivery 
schedules, and how do we more efficiently smooth production. 
So, for example, if it is helpful for them for a delivery date 
that we have on a current contract to extend that so that they 
can more succinctly level-load the workforce in the yard, we 
are more than happy to have those discussions.
    Mr. Gallagher. I mean, both yards, as you know, have been 
optimized for two ships on a 6-month production rate. So I 
worry when we get into mitigation in production rates that 
really what we are admitting is that--I mean, if 2 of our 
yards, 2 of the 7 are having difficulties, I don't see any way 
we can get to 355 ships and thereby satisfy the Commander-in-
Chief's intent.
    And kind of in line with what the chairman laid out, 
echoing the CNO's white paper on the need to get there in 10 
years, not 20 years or 30 years, does the Navy have a plan as 
part of the ongoing review? I know we are talking in 30-year 
terms, but is anyone thinking about how we get there in 8 years 
or 10 years?
    Ms. Stiller. As was referenced earlier, Mr. Stackley signed 
out the Accelerated Fleet Plan, which, as he talked about it, 
it helps to set the framework for strategic guidance. We expect 
that to be part of the discussion as SECDEF goes through the 
strategic review and we get through this summer to figure out 
where we are headed. But where you are going to see growth in 
the force, as Admiral Lescher mentioned, is starting in fiscal 
year 2019.
    Admiral Lescher. If I may, sir, add to that.
    The Navy is looking very comprehensively, to your point, 
about how you can really accelerate growing to a larger force. 
So clearly, the initial step is the investments in this budget 
to improve readiness. To get the ships we have out is one 
element to that; looking at service life extensions as well 
where that makes sense across either DDGs or SSNs [attack 
submarines]; also commissioned a study to look at whether 
recommissioning would make sense; and then also, of course, 
looking at new build.
    So that is part of an ongoing comprehensive assessment that 
would be really rolled out as part of the next year's budget 
about how you get after this in the most aggressive way.
    Mr. Gallagher. So when is the soonest we and the American 
people could see a Navy plan for getting to 355 in the 2020s, 
as the CNO says we must? To include what mix of ships go to 
what shipyards and just how we do it?
    Admiral Lescher. Well again, sir, that is a great question. 
One, of course, key element of such a strategy would be how 
fiscally informed it was. So it starts with the ability to 
execute that. To make that plan come alive obviously starts 
with the defense caps as well.
    So I do think that that is part of this ongoing discussion 
that will come this summer, this fall, and certainly be part of 
the fiscal year 2019 rollout.
    Mr. Gallagher. I just would hope that we talk about 
strategically what is necessary before we get into fiscally 
what we need to achieve, what we know we must, right?
    And so if we have that clear signal coming from the 
Pentagon or the Navy, it makes it easier for us here to make 
the argument to our colleagues that we need to fully fund what 
you are asking for. Three [hundred] fifty-five, as I remember, 
is the minimum you guys are saying you need to satisfy an 
ongoing requirement. So the sooner we can get there, the 
better.
    I just would submit if you look at how the Reagan 
administration got there, they were able to do both at the same 
time. I appreciate the crucial investments in readiness, but 
the fact that we are actually taking a backwards step when it 
comes to shipbuilding is incredibly troubling.
    And so I just would ask that you work with us on how we do 
this in a more expeditious fashion, and I hope we get to see 
that plan. And as the CNO said, we can do. We believe the 
defense industrial base could produce 14 more small surface 
combatants in the near term and a total of 29 more ships over 
the next 7 years than under current plans.
    Mr. Chairman, I yield.
    Mr. Wittman. Thank you, Mr. Gallagher.
    We will now go to Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. And I 
thank our witnesses for being here today.
    While I share some of the concerns that my colleagues are 
voicing about resource allocation in the fiscal year 2018 Navy 
budget proposal, I am pleased to see an effort to rebuild the 
readiness.
    And I will first note that I was pleased that the request 
included three MQ-4C Triton systems, which provide a critical 
maritime ISR [intelligence, surveillance, and reconnaissance] 
capability at a crucial time in the Indo-Asia-Pacific region, 
where I understand an early operational deployment to Guam is 
scheduled for 2018. Admiral Lescher, could you tell us how 
things are going on the program and whether the deployment is 
currently on track?
    Admiral Lescher. So, ma'am, I will have to get back to you 
on that specific deployment, but I will tell you the program is 
to a point where it is going to be able to execute it looks 
like the acquisition profile that you highlighted of three this 
year and three going forward.
    So we are very much looking to bring the MULTI-INT [multi-
intelligence] capability of that aircraft online, forecast for 
an IOC [initial operational capability] 2021 timeframe as well.
    So anything else you would add, Allison?
    Ms. Bordallo. Can I ask you to get back to us when you do 
have some plans about the deployment?
    [The information referred to is classified and retained in 
subcommittee files.]
    Ms. Bordallo. Okay. And shifting subjects, Assistant 
Secretary Stiller, it is nice to see you again. And could you 
just go through how you see that this budget request adequately 
addresses the current threats that hold our forces at risk. Are 
we investing appropriately in long-range standoff weapons?
    Ms. Stiller. Ma'am, I will start off and then I will turn 
to Admiral Lescher as well. But we do have a strategy for our 
weapons across the board. And we are investing in each of the 
areas, and we look at it in the near term, the mid term, and 
the far term. We have been very careful to make sure that we 
are putting a balance across investing today, investing in the 
near term, and also investing in the long term, to understand 
exactly where we need to go.
    I don't know if you want to add to that.
    Ms. Bordallo. Admiral.
    Admiral Lescher. Just a little bit more detail. So, as 
Allison said, in the near term we are really focused on 
providing options to the commander, in terms of how these 
weapons are launched, these long-term weapons, and also their 
target set. So, for example, the Tomahawk, with the request for 
100 in this budget, which is an increase from the prior budget, 
obviously, that is ship-/sub-launched for a land attack 
mission.
    The LRASM [Long Range Anti-Ship Missile], also forecast 
with an early operational capability on the B-1 in fiscal year 
2018, and an F-18 in fiscal year 2019. So that is an air-
launched weapon, providing the commander options to go after 
the maritime target set. SM-6, maritime target for cruiser/
destroyer-type ships. So those would kind of be the set for the 
near term 2020.
    As we move into the 2020 to 2025 range timeframe, the 
Tomahawks, as you know, will be coming in for recertification 
starting in fiscal year 2019. As part of that recert, to build 
some of them as maritime strike Tomahawk variants. So from 
ships and submarines to be able to strike both land and 
maritime targets will be an important flexibility for the 
commander.
    In the 2020 to 2025 timeframe as well, we are investing in 
an advanced Harpoon for an aviation launch to go after the 
maritime target. And then the OTH missile we talked about 
earlier, as part of the distributed lethality, to look for that 
to come aboard LCS and frigates.
    So a little bit of an outline.
    Ms. Bordallo. Thank you. Thank you. One quick question also 
for you, Secretary Stiller. Are you coming up with any kind of 
final plans--I have asked this before at hearings--about 
putting together a dry dock? We now have the appropriations 
available in the western Asia-Pacific area. Do you have any 
plans? I understand it is in a planning stage, but where are 
we?
    Ms. Stiller. So, ma'am, I would certainly like to come and 
sit down with your team and talk about what is the best use of 
the $9.5 million that you refer to for depot-level capability. 
But, as you know, the Vice Chief of Naval Operations, Secretary 
Stackley, and Secretary McGinn asked us to do a business case 
analysis on having dry-dock capability in Guam as well as a 
warfighting analysis.
    Ms. Bordallo. Or any of the other----
    Ms. Stiller. Right. And as they came through--and we have 
done both of those. And our warfighting assessment tells us 
that in peacetime and in wartime, the repair timeline would be 
too long for that to be of value. But we went ahead and looked 
at the business case too.
    And the business case, because of the throughput in the 
dock, it just doesn't make fiscal sense. So I want to figure 
out the best way that we can leverage those dollars. And we are 
in the early stages of coming up with ideas, but it would be 
worth sitting down with your team to figure out.
    Ms. Bordallo. Well, I am concerned because of threats. You 
know, we certainly have been threatened in our area. And in 
this case, I certainly think it would be important to come up 
with some kind of a plan. Thank you.
    And I yield back.
    Mr. Wittman. Thank you, Ms. Bordallo.
    We will now go to Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Secretary Stiller, you were in my office with Secretary 
Stackley and we created the integrated program office, right, 
for the icebreakers. We now give the Coast Guard--as of my 
Coast Guard bill today, we give them total block-buy authority 
for all their major acquisitions. They can lead materials. 
Trying to put them on par with the Navy.
    So I guess Mr. Courtney already talked icebreakers. I guess 
the one specific question I have is, do you think it is even 
possible to build three to six heavy icebreakers in the next 
decade without doing block buy? The Navy does block buy on lead 
ships. And,

again, the icebreaker, there is ice, the icebreaker hits it, 
goes down on it, backs up, hits it, goes down on it, backs up. 
I mean, it really is not rocket science, but the Coast Guard 
will make it seem as such if the Navy allows them to.
    Ms. Stiller. Sir, I would tell you that block-buy authority 
has certainly helped us in certain acquisitions. We haven't 
always gone to it on a lead ship, but certainly on follow 
ships. You just have to weigh the risk, to your point.
    So as they come through the requirements, I think as we can 
look at the risk, we can make a really good assessment whether 
block buy makes sense. But certainly, when you are buying a 
limited quantity like you are talking about, whether it is 
three, even six--if it is six, perhaps you would start the 
block buy from two to six. But if you are talking about three, 
you just have to look at the risk.
    But absolutely, block buy helps with the vendor base, the 
commitment to the shipyard, all the way around. It is a very 
helpful tool. And it would be very useful for them, I am sure, 
to be able to most efficiently----
    Mr. Hunter. Which you are telling them, I would presume.
    Ms. Stiller. Oh, yes. At this stage of the game, what we 
are doing with the Coast Guard is really looking more at the 
requirements and the tradeoffs to get the specifications right, 
working with industry to get their good ideas as we go in and 
build a contract design type package so that it can go out for 
bid. And then as we get closer to how are we going to go 
contract for it, we will certainly have those discussions.
    Mr. Hunter. How do you see at this point the Coast Guard 
getting the $1 billion to do that without using Navy money?
    Ms. Stiller. Sir, I defer to the Department of Homeland 
Security and the Coast Guard on that. Like I said, we signed an 
MOA [memorandum of agreement] at the DHS [Department of 
Homeland Security] level just last week, and, really, that 
squares away how we would go about contracting, depending on 
the color of money. But they understand that that is not coming 
from the Navy budget, that it is coming--that they are going to 
have to address it.
    Mr. Hunter. The last question is--what is nice about coming 
in late is everybody asks your questions before you do, so I 
don't have to say anything. But Mrs. Davis, from San Diego, 
asked about the ESBs. But here is my question in general, one 
thing I don't understand.
    If you have got hot production, right, and you stop it, you 
guys, you and Secretary Stackley have obviously looked at the 
cost incurred on stopping a hot line. I don't understand how we 
are going to take a timeout for fiscal year 2018, do all 
maintenance and repair, add no new ships, and even stop the 
ones that we requested in the last 6 months? For instance, like 
the ESB, I don't understand how that plays out across the 
shipyards in the country.
    When you stop a hot line then you say, okay, you got to 
fire all the welders, all the pipefitters, all the guys bending 
steel, and then

we are going to rehire them back in 12 months. Just explain to 
me how that works. I don't get it.
    Ms. Stiller. Well, sir, in the case of NASSCO, who is the 
builder of the ESB, they also have--they have work in the yard 
that is Navy and commercial work. So, as you know, we ran a 
limited competition for the LHA-8, and up to six--or including 
six oilers. And we ran a competition of similar ships.
    Mr. Hunter. The TAO.
    Ms. Stiller. The TAO. And NASSCO has run the TAO. So they 
have steady production in the yard for the oiler. They also 
have commercial work. The ESB-5, was a fiscal year 2016 
appropriated ship and authorized--and thank you for that help--
but they have not yet started construction on that ship.
    So we really have to look at what does the workload look 
like in a yard? It is a little different because they are more 
of a multiproduct yard. So they have a workforce that has a 
base of work. And so we would have to look at the best timing 
if we were to go ahead and buy additional ESBs that are called 
out in the FSA.
    Mr. Hunter. I am out of time in 20 seconds. Tell me 
nonparochially, across the whole country, when you look at 
shipyards and you are stopping a lot of these builds with no 
new starts going for 1 year, what does that do nationally to 
some of these yards that aren't NASSCO?
    Ms. Stiller. Sir, we do not like to go to zero and then 
restart. That is not where we want to be. And that is why we 
look at can we make sure that we are paying attention to the 
industrial base.
    Mr. Courtney would be able to tell you that in submarines 
we had a hiatus of 6 years between submarine builds. That was 
very difficult at the end of the Seawolf program to ramping 
back up into the Virginia class.
    So we are very aware of the devastating impacts that can 
happen if you go down, if you go to zero in a yard or near 
zero. So we look very carefully with the yards. We have 
dialogue with the yards to make sure that we are not doing that 
type of harm.
    We have gotten the minimum sustaining rates in a number of 
yards and on a number of aircraft and weapons programs, and 
that is difficult, because you end up paying more for what you 
have to go buy to equip the warfighter.
    Mr. Hunter. Thank you very much. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Hunter.
    We will now go to Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman. Ms. Stiller, I 
understand and I got to see the benefits of the block program. 
And I think we will all agree that the, I guess, one product 
that is built that is on budget and sometimes comes in under 
budget is like the Virginia class. And the Virginia class, it 
is the method by which it is built, but in addition to that it 
is where we did the block program.
    Having said that, however, Admiral Richardson's white paper 
says: The Navy must get to work now to both build more ships 
and to think forward, innovate as we go. To remain competitive, 
we must start today and we must improve faster.
    A great philosophy. But my question is, how do you 
determine what, in other words, and where? So all of this is 
premised on the threat, and his paper focuses on Russia and 
China. Understood. But in his paper, he also says China was a 
land issue and then decided in 2015 or something along those 
lines that all of a sudden they said, well, you know what, we 
got to be a maritime force.
    And they can switch immediately and do whatever they are 
going to do, which I assume that if we are reacting to that 
threat that we are going to have to reposition ourselves to 
whatever they decide that they need to do to be a maritime 
force. So how do we make that decision?
    Our problem is we really set our policies by acquisition. 
What we do is we say, okay, let's go to Virginia-class subs, 
and if we do a block program it is 10. At some point, it may 
not be the answer, though. Of course, I will never admit that 
or I will never believe that. But say something like that 
happens. How do we anticipate that?
    When I was in Congress before, LCSs all of a sudden became 
the bad thing. We weren't going to build LCSs. I come back to 
Congress and we are building LCSs again. Yes, there are some 
modifications. We may call it a frigate, we may do whatever, 
but we are building it again. So how do we plan for that 
effectively and efficiently and within the costs that we have 
to always look at to contain and to manage?
    Ms. Stiller. So, ma'am, I would say on most of our 
programs, most of our weapons, our platforms, our shipbuilding 
platforms, they are very adaptable. And so over time we have 
been able to pace the threat.
    And I will give you an example. I will use DDG-51 and then 
I will use Virginia. So on the DDG-51 program, we have got 54 
ships delivered into the Navy.
    Ms. Hanabusa. We were supposed to stop DDG-51.
    Ms. Stiller. We did stop. We did stop. There is an example 
of where we shut the line down and then restarted it, and we 
are in the restart now. But we also are introducing our Air and 
Missile Defense Radar to that ship; in fact, I mentioned that 
we have a handshake today with Ingalls to introduce that on 
their fiscal year 2017 ship.
    So going forward in the 2018 multiyear, we are going to 
introduce that capability, which will give us much more 
enhanced BMD [ballistic missile defense] capability on those 
ships.
    So we have also done that on Virginia class. As we have 
seen the threat evolve, we have been able to pace the threat, 
whether it be in the combat systems or Virginia payload module, 
for example. So we build platforms that are very adaptable. And 
so what we need to do a better job of with CNO, where I think 
CNO is going too, is the ability to inject those changes more 
rapidly, get the capability developed and be able to get it out 
there quicker.
    He and I have co-chaired a couple of accelerated 
acquisition boards. We have designated two programs to be 
maritime accelerated capability offices, MQ-25 and our LDUUV 
[Large Displacement Unmanned Underwater Vehicle], and we also 
have an RPED [rapid prototyping, experimentation, and 
demonstration] project for surface Navy laser weapon program. 
So he and I are looking at how do you tailor and make sure that 
you can get programs off and running to a good start.
    And we also have the ability to prototype, to go test 
capability, fail in some cases, I am sure, but in other cases, 
we will be able to be successful and be able to get stuff to 
the fleet faster.
    Admiral, I don't know if you wanted to add.
    Admiral Lescher. Ma'am, I would just add, the theme that 
Secretary Stiller has been talking about of increased agility, 
and to your point, to be able to not just be reactive, but to 
be proactive in the way we acquire things, is a key theme that 
you will hear continually from CNO and the Secretary. The sense 
of urgency to be able to just be more agile and developing and 
fielding fleet. This framework of focusing on not just 
platforms, but the payloads and the sensors, and really it is 
the netted integrated things that we are investing in that we 
see as the real--really the game changers for the tactical 
capability we field.
    Ms. Hanabusa. And I am running out of time, but what I 
would like to have you respond to is in terms of our laws and 
in terms of the way procurement works, what is it that you 
need, if anything, for that flexibility so that you can change 
what is there?
    And if you could--I am out of time, but if you could give 
it to me back on the record, because it seems like that is what 
is missing. In order for us to do it, you have got to be able 
to be flexible.
    Ms. Stiller. Yes.
    Ms. Hanabusa. And is our structure sufficient in terms of 
that flexibility.
    Ms. Stiller. Yes, ma'am. And I would be happy to give you 
that. One of the first starts was the 2016 NDAA, which pushes 
stuff to the services, so----
    Ms. Hanabusa. Thank you.
    Mr. Wittman. Ms. Hanabusa, if you would like, we can have 
the question answered now if you would like.
    Ms. Hanabusa. Oh. Is that--oh. Thank you.
    Mr. Wittman. Yes.
    Ms. Hanabusa. Could you please answer?
    Ms. Stiller. I will, but I can also get you additional--we 
have been working very, very closely with the committee on 
acquisition reform initiatives that would help us to 
streamline.
    Giving us accelerated acquisition authority has been very 
helpful so we can go and tailor programs, again, like I 
mentioned CNO and I are trying to do, and we want that to 
become the norm.
    The fiscal year 2016 National Defense--NDAA pushed 
oversight to the services, and that has been--that is very 
helpful as well for programs that are not joint programs, so to 
give services a little more flexibility.
    We have particular legislative proposals that I can get you 
a listing of things that will help us, but we have been working 
very closely with the committee, and I think we have a lot of 
good tools in our toolkit. We just have to give them some run 
time now, because we have recently gotten them.
    I don't know if you had any----
    General Walsh. If I could jump in on that, Allison. One 
thing I think is the law is really helping us out. It is 
pushing things down much more to the service chiefs, but within 
our large bureaucracy that we have got within DOD [Department 
of Defense] to work through that, now how does that big 
bureaucracy adjust to the flexibility that you are giving us?
    Ms. Hanabusa. That is exactly the problem.
    General Walsh. So as we are getting into the details of 
that, one of the big things that is challenging us is, so where 
does the money come from? Typically in the past where we have 
taken money is out of existing programs, and squeezed those 
program lines, the R&D out of those programs, to try new ideas, 
new and innovative things to kind of move faster.
    So as we now start to take in our programming process and 
align money to that, that is not what we have been used to in 
the normal DOD way of acquisition. So by moving money into that 
area, do I move a little in? Do I try? Is somebody going to 
take it from me if I move it in there?
    You know, up the chain of command, is somebody over on the 
appropriator side going to take the money if I move it in there 
to try.
    So I think the key thing that we are starting to see is be 
very specific in the area that we are trying to do innovative 
ideas, and then work very closely with our chain of command all 
the way up to DOD and then over here in Congress, so when we 
say, hey, we are going to put money in here against this 
capability area, it might be mine warfare, it might be ship-to-
shore maneuver, and we put money in there to do some rapid 
prototyping to see where we get, that that money doesn't 
disappear as we put it in there before it gets appropriated.
    Ms. Hanabusa. Thank you. Thank you, Mr. Chair.
    Mr. Wittman. Thank you, Ms. Hanabusa. We will now go to Mr. 
Garamendi.
    Mr. Garamendi. I want to follow up on what Ms. Hanabusa was 
working on, but start in a slightly different place.
    We have heard discussion after discussion about a 355-ship 
Navy, and it almost seems to me that that number is driving 
decisions. And the LCS is where I want to go with this.
    Ms. Hanabusa said it started, it stopped, it started up 
again. And the information that we have currently available is 
that it doesn't work for what it was designed for or developed 
for, but yet we are going to continue to build them. And since 
it doesn't work, we are going to go build a frigate. And now we 
don't know what the frigate is going to be used for.
    We had a discussion, Admiral, a moment ago, it is going to 
be electronic warfare or maybe missiles or maybe whatever. And 
I am trying to figure out, what are we doing here? Are we 
simply trying to build ships to meet a target number or are we 
trying to build ships--or are we building ships for specific 
purposes?
    The discussion a moment ago about flexibility, I assume 
that was flexibility that the ship might be used for this or 
that and different elements added to it. Presumably that is 
what the LCS was supposed to do, but it doesn't seem to do 
that, because it can easily be sunk, and doesn't work close to 
shore because it can easily be sunk.
    I don't get it. I really don't understand. I understand why 
we want to keep the shipyards busy. A very cogent argument, Ms. 
Stiller, that you put together on that account, as did Mr. 
Byrne, who--and Mr. Gallagher. I guess it is the appropriate 
time for me to raise the issue, since they are both gone. But I 
don't get it. I don't understand here what it is. And we are 
talking about, you know, half a billion dollars a copy or more.
    So help me. Help me. What is it that we are trying to 
accomplish here with these particular ships?
    Admiral Lescher. So I will start by observing that the 
fleet has a very high demand for these ships, which is so--it 
is contrary to the notion that they are not working. They are--
in fact, Admiral Rowden, the surface forces commander, said, 
``Hey, I need these ships out here and I need more of them.''
    In terms of the specific missions in particular that the 
littoral combat ship will be executing, one of the key ones is 
mine countermeasures. So our current mine countermeasure ships, 
the MCM-1 Avengers, are running out of service life, and they 
will be retired in the late 2019s, early 2020s, and so that 
mission will be executed by LCS. It also has surface warfare 
and ASW [antisubmarine] warfare mission packages as well that 
it will execute.
    I would say one of the more compelling ways to think about 
LCS----
    Mr. Garamendi. Excuse me for a moment for interrupting.
    Admiral Lescher. Yes, sir.
    Mr. Garamendi. The director of operational testing and 
evaluation says that the mine countermeasure and the 
antisurface warfare mission packages has not demonstrated--
don't work, has not demonstrated effective capability.
    Admiral Lescher. Right. And so there is----
    Mr. Garamendi. So what--could you just tell me?
    Admiral Lescher. They are in development----
    Mr. Garamendi. Are you telling me they do or they don't?
    Admiral Lescher. Well, like any sophisticated technology, 
and what is compelling about this technology as well is it 
takes the man out of the minefield, right? So we are talking 
unmanned technology with a forecast initial capability of that 
MCM mission package of 2021. So there is absolutely work to be 
done to mature that, to get that functional.
    Mr. Garamendi. But these things are not survivable in the 
area for which they were intended to operate.
    Admiral Lescher. Well, so as the commander who is going to 
use them will take a look at--he will design his operation and 
design his campaign so they are survivable, right?
    Mr. Garamendi. In other words, not putting them where they 
were intended to operate.
    Admiral Lescher. Well, I think they will operate as 
intended, but what they also do is if--absent these ships, we 
would be putting, you know, a $1.5 billion DDGs to do some of 
these missions that are not suitable for those ships.
    So these ships are designed specifically to replace the MCM 
ships, to replace the PC [patrol coastal] ships, to do that 
mission in an environment in which--in which they were designed 
to do.
    Mr. Garamendi. But not survivable. I----
    Ms. Stiller. Sir----
    Mr. Garamendi. Is that the case? Am I----
    Ms. Stiller. Sir, there are----
    Mr. Garamendi. We hear--I hear over and over----
    Ms. Stiller. There are different components to 
survivability, and that when the requirements for these ships 
were laid out, they are incredibly fast, so they can get in and 
out of an area, and that will----
    Mr. Garamendi. They don't go very far.
    Ms. Stiller. Well, sir, they can go far. I mean, there is--
there is the iron triangle of--but I understand what you are 
saying, but they were designed to a certain level of 
survivability.
    That has been enhanced over the time in the program. And, 
again, these ships were designed to be--have mission modules 
that would switch in and switch out, as Admiral Lescher was 
describing, and so they really are single mission ships. And as 
Secretary of Defense Hagel and Secretary of Defense Carter and 
Secretary of Defense Mattis have said, we want to get to a 
frigate that is a multimission that will have the SUW [surface 
warfare] and the ASW capability inherent in the ship.
    So there is absolutely a mission for these ships. As 
Admiral Lescher said, for the LCSs, they are in demand today 
and they are in construction today. And there is a demand for 
the frigate going forward, with a total inventory of 52. And so 
we are trying to figure out what the right balance between the 
LCS and the frigate should be.
    Mr. Garamendi. And you are not yet complete with that 
analysis?
    Ms. Stiller. Well, as we were intending to go to the 
frigate in 2019, we would have had a total of 28 LCSs. In order 
for the industrial base, there will be additional ones, they 
will be employed. We are looking at backfitting capability that 
we are intending for the frigate onto existing LCS and be able 
to do that in forward fit as well.
    Mr. Garamendi. I have many more questions. I am out of 
time.
    Mr. Wittman. Thank you, Mr. Garamendi.
    Vice Admiral Lescher, just as a follow-up, in the shock 
trial testing for LCS, give us a perspective there about its 
survivability based on its testing standards?
    Admiral Lescher. Sir, I think I will ask Secretary Stiller 
to speak to this as well, but it performed well, is the bottom 
line there.
    So do you have any more----
    Ms. Stiller. Yes, sir. Both variants went through shock 
trials this past year, and they both performed very well. And 
DOT&E [Director, Operational Test and Evaluation] was part of 
that analysis, so they were with us on the ship. They were 
tested to the survivability levels that they were designed to, 
and they passed.
    Mr. Wittman. Okay. Very good. Thank you. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for appearing today.
    So when it comes to transitioning technology, I believe 
that we have to be prepared in advance to facilitate smooth 
transition from the lab into the joint battle space. We can't 
let the perfect be the enemy of the good. So in that line of 
thinking, we can't let our desire to get to 100 percent deter 
us from fielding a 95 percent solution. And if we delay funding 
transition pieces, then we risk technologies falling into the 
``valley of death.''
    And I understand that the Navy has decided not to fund the 
transition railgun this fiscal year despite multi-shot with 
inspection tests having recently occurred and a true multi-shot 
test likely to take place soon.
    So I want to know, what is the potential impact to railgun 
development without this transition money?
    Admiral Lescher. Sir, so the status of railgun is there is 
continued S&T [science and technology] funding, as I think you 
just highlighted, in this budget forward, and that really just 
reflects the technology maturity of it right now.
    So going to the $6.4 [million] funding that you were 
talking about for demonstration and validation and then 
operationally realistic environment, our assessment is that 
technology is just not ready for that stage yet. So we are 
continuing to fund it, looking for the repeated--you know, ten 
rounds per minute type capability out of that weapon and the 
barrel life as well, continuing to fund that to keep the 
overall momentum going.
    We are also refocusing fundings into the hypervelocity 
projectile and accelerating that for use in the 5-inch powder 
guns so that we can integrate it with the combat systems. So in 
that specific program, the current profile simply reflects its 
execution and the maturity of that technology right now as we 
continue to try and develop it and take it forward.
    Mr. Langevin. So at what point in its development would the 
Navy find railgun viable in order to consider transition?
    Ms. Stiller. Sir, I think, as you mentioned, we have a 
multi-shot event coming up later this summer. That will help us 
to look at it and see where we want to go as part of the 2019 
budget, but that gives us additional information that helps us 
to retire some of the risk.
    Admiral Lescher. Yeah. I think for fiscal year 2019 is when 
we are forecasting a full-scale prototype demonstration.
    Mr. Langevin. Okay. And as we look forward, what platforms 
does the Navy see as viable for railgun?
    Admiral Lescher. So I am not sure that analysis has been 
done yet or has been settled yet. I will take that for the 
record, sir, and get back with you.
    [The information referred to can be found in the Appendix 
on page 97.]
    Mr. Langevin. All right. I would appreciate it. I just 
don't want us to, you know, let the perfect be the enemy of the 
good.
    And I commend the Navy for being very forward leaning on 
things like directed energy. I know we have got a test weapon 
on the USS Ponce, it is a 30-kilowatt system, and, again, not 
perfect, it is not what we want it to be in terms of a 150-
kilowatt system, but we are learning as we are going, and it is 
effective against some targets like drones and things like 
that, so we are learning a lot.
    So, again, I commend the Navy for being forward leaning on 
directed energy; I just don't want to see us fall behind and 
lose the opportunity to get railgun out there as well if we are 
waiting for perfect.
    Ms. Stiller, our shipyards, and particularly those working 
on our submarine fleet, depend on timely distribution of funds 
from the U.S. Navy in order to successfully procure and 
construct the various pieces and parts of our fleet so that 
they can deliver on time and under budget.
    The Navy has previously predicted the long lead time 
material, engineering support, and advanced construction 
activities required to capitalize on advanced procurement 
successes. Has there--or will there be coordination with the 
shipbuilding industry to identify what delays on delivery or 
additional costs may occur if we don't have adequate advance 
procurement funding?
    Ms. Stiller. Yes, sir. We are in constant communication 
with the shipyards. And for our next multiyear on Virginia, we 
have already identified EOQ [economic order quantity] funding 
that will start in fiscal year 2019 for that multiyear in 
concert with the shipyard to make sure that we are getting the 
best deals we can with our EOQ funding. And that will go 
through the entirety of the multiyear, but we want to make sure 
that we have it upfront when we need it.
    And I think we have it adequately funded right now in the 
budget, but we will continue to have that dialogue with the 
yard and--yards, and if they identify other areas where we 
could benefit from EOQ, we are happy to have that discussion.
    Mr. Langevin. I think that dialogue is important. Let's 
make sure that continues.
    Finally, you may have to answer this for the record, my 
time is about to run out, but the Navy has made great strides 
in the Surface Electronic Warfare Improvement Program [SEWIP], 
and the existing fleet has been receiving enhanced electronic 
warfare and surveillance capability. So leveraging these 
technologies is essential to pace the impending full-spectrum 
threat of tomorrow's fight.
    How does the fiscal year 2018 budget request advance 
electronic warfare capabilities? And, also, the Marines have 
also planned to grow their electronic warfare [EW] capabilities 
through aviation and ground EW equipment. Will the fiscal year 
2018 budget request provide the Marines with adequate funding 
to make further investments in the spectrum realm?
    General Walsh. Thank you, Congressman. I mentioned earlier 
we had gone through a fairly detailed force structure review. 
One of the areas that we focused on very heavily was 
information warfare, of which electronic warfare is a big piece 
of that.
    So what we are doing in our Marine Corps Force 2025 is 
growing that structure in electronic warfare. And in the fiscal 
year 2018 budget, we have got funding going into both aviation 
and ground programs to increase those capabilities, along with 
the R&D efforts to get more follow-on enhanced capabilities 
through some of the labs that we have.
    Admiral Lescher. Sir, on the SEWIP question you had, the 
fiscal year 2018 budget has a Block II in full-rate production 
and Block III initial system that is in development. A contract 
award is forecast for the fourth quarter of this year.
    Mr. Langevin. Okay. Thank you all very much. I yield back.
    Mr. Wittman. Thank you, Mr. Langevin.
    Ms. Stiller, I do want to end with one additional question 
that hadn't gotten mentioned through the line of questioning, 
and that is concerning the aircraft carrier build.
    As you know, in the Force Structure Assessment, the 
projection was they are to go to 12 aircraft carriers, and I 
want to get your perspective. At the current build rate of 1 
carrier every 5 years, is it possible to ever get to 12 
aircraft carriers, building 1 for every 5 years, and if not, 
what would the cadence of construction need to be in order for 
us to get to 12 within the next 30 years? And did the budget 
request include anything in that initiative?
    Ms. Stiller. Sir, we could have gotten to 12 carriers for a 
brief period of time had we--on CV--when CVN-79 was introduced, 
but we changed the delivery schedule on that ship so that we 
would not get above 11.
    So if you stay on 5-year centers, right now we are at 11, 
you would eventually get down to 10. So we have always said 
where you need to be to get to a 12-carrier Navy is about a 
3.5-year centers. And we are not there right now. We are on 5-
year centers, and at this point, the budget doesn't reflect 
anything that would change that. That will be something as we 
go through the defense strategic review this summer and 
SECDEF's priorities for the 2019 and out budget that we will be 
looking at.
    Mr. Wittman. So if we were to go to 3.5-year cadence in 
builds, we could get to 12 in the next 30 years?
    Ms. Stiller. Oh, yes, sir.
    Mr. Wittman. Okay.
    Ms. Stiller. Yes, sir.
    Mr. Wittman. All right. Very good. I will go to Ms. 
Bordallo.
    Ms. Bordallo. Thank you.
    Mr. Wittman. I am sorry. Mr. Courtney.
    Mr. Courtney. Ladies first.
    Ms. Bordallo. Thank you, Mr. Courtney. Mr. Chairman, I am 
returning here for another question because I want to 
straighten out the record.
    Secretary Stiller, when I asked you about the dry dock, you 
said one of the reasons that they are still discussing it is it 
is not financially viable. The BCA says that it is twice as 
expensive to not have a dry dock than to have one on Guam, and, 
of course, this would certainly be the case if you had to 
depend on other U.S. shipyards.
    But I am wondering, would the Navy be going back to relying 
on foreign ship repairs like they did in the old days, taking 
their MSC [Military Sealift Command] ships over to Singapore? 
So it is my belief, and Navy leadership has stated, and we have 
this on record, that a dry dock is a strategic need in the 
Western Pacific. And I am concerned again, and I want to repeat 
it, that there is an overreliance, or maybe there is an 
overreliance on foreign ship repair.
    So I am asking, what is wrong with Buy America?
    Ms. Stiller. Yes, ma'am. As you know, MSC ships are not 
homeported, although--and I know that is a nuance there, but 
when we looked at the BCA, the BCA revealed to us that the 
usage rate would be too low to justify the cost for the dry 
dock and the infrastructure that came with it. The estimate in 
that BCA was anywhere from $32 million to $46 million a year to 
maintain the dock. And so that just far outweighed----
    Ms. Bordallo. So where would you go for ship repair?
    Ms. Stiller. You can go--you can come back to the U.S.
    Ms. Bordallo. And that is not expensive?
    Ms. Stiller. There is an expense, but it is not as 
expensive as maintaining a dry dock.
    Ms. Bordallo. Well, I think this should be further looked 
into, and, you know, I plan to do this, because----
    Ms. Stiller. Understand.
    Ms. Bordallo [continuing]. I just think that if anything 
should erupt in our part of the world, and Guam is in the lap 
of North Korea, so I want to see that we have everything we 
need, and that is a full-scale dry dock on Guam. And the money 
is there, and so I see no reason why we can't continue to look 
at this very seriously.
    And I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Bordallo. I now go to Mr. 
Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. Just one quick 
question, which is kind of a nagging one that my office 
certainly hears a lot about, from Groton, which is the issue of 
security clearances. Again, as the hiring up is proceeding, we 
are, I think actually, and I think Rob is probably in the same 
position, you know, the State of Virginia and Connecticut, they 
have been doing a pretty good job of, you know, getting 
training and, you know, workforce skills in place, with the 
help of the Department of Labor.
    But the security clearances, I mean, they have actually 
reached a point where they are segregating parts of the yard, 
you know, because they are still sort of in limbo waiting for 
the final final.
    Is this an issue that you are watching, and is there 
anything that you can help us with in terms of reporting back?
    Ms. Stiller. Yes, sir. I can tell you that this has been 
high on the Navy's concern list. And I believe it was last 
week, he may not have signed it yet, so don't hold me to this, 
but Mr. Stackley was poised to sign a letter to the Defense 
Security Services folks offering to provide naval reservists to 
help get at least the--to interim secret for the shipyard 
workers so that they can go and start work.
    Obviously to get to--the clearance level has to go all the 
way to OPM [Office of Personnel Management], but this would at 
least alleviate the backlog within the Department of Defense. 
We are looking at this as a one-time thing, but we want--so 
they can go address it, but we really do understand the impacts 
of not being able to get that workforce employed where we need 
them. And so we are looking at doing this on a one-time 
exception to be able to go and address this backlog.
    Mr. Courtney. I am glad I asked the question. And, again, 
if there is----
    Ms. Stiller. Of course, if you can help us with OPM, that 
would be wonderful.
    Mr. Courtney. And we are there, I mean, all in. And to the 
extent that, again, that, you know, memorandum has been 
released, you know, again, I know my office, and I would 
imagine others, would be very anxious to get a copy of it.
    Ms. Stiller. Yes, sir.
    Mr. Courtney. And lastly, Mr. Chairman, just for the 
record, I just feel like given the discussions that both of us 
had earlier, I would like to enter into the record the 
executive summary of the FSA, the February 9 Accelerated Fleet 
Plan, and also Admiral Richardson's memo from last week. Again, 
I think it just helps sort of complete the record.
    Mr. Wittman. I would agree. So ordered. We will make sure 
we do that.
    [The information referred to can be found in the Appendix 
beginning on page 67.]
    Mr. Courtney. And with that, I yield.
    Mr. Wittman. Very good. Thank you, Mr. Courtney.
    I do want to, Ms. Stiller, also address one other thing, 
and that is the Ready Reserve Force. In looking at today where 
the demand is in relation to a potential conflict and our 
ability to sustain logistics surrounding a major war, I believe 
we are going to be severely tested with the current element of 
our Ready Reserve Force. It is antiquated, its ability to 
conduct extensive logistical efforts, I think, is really going 
to be tested.
    So the question is, is the Navy looking at the Ready 
Reserve Force? Is there anything in the current budget request 
to look at building the Ready Reserve Force with the capability 
necessary to be able to sustain logistical support necessary in 
a major conflict?
    Ms. Stiller. Sir, this is something that we will be 
addressing in fiscal year 2019, but we have been looking at it, 
and, in fact, in the Navy's Accelerated Fleet Plan, there is a 
little section that talks about looking at our prepositioning 
ships and the age of those, and that those, while not aged out, 
are aging, and they could go--and I am--it doesn't say it 
exactly like this, but that those ships could be considered to 
go into the Ready Reserve to relieve those ships that are very 
old, because what we don't want to do is build brand-new ships 
and then put them in the Ready Reserve. That doesn't make 
sense.
    So you would recapitalize potentially the Maritime 
Prepositioning Ships. And we want to look, because we want to 
be very thoughtful about it, we want to look at something like 
a common hull form or a family of common hulls that would 
provide that capability, that would provide synergy on the--and 
logistics support and other stuff. So we are looking at it. 
TRANSCOM [U.S. Transportation Command] is also interested, as I 
know you have heard----
    Mr. Wittman. Yes.
    Ms. Stiller [continuing]. On bringing ships from the 
Maritime Security Program, buying them and bringing them into 
the Ready Reserve. There is probably a mixture of all of that 
that has to be looked at.
    And, again, we intend to be looking at that in 2019, so I 
think you will start to see that discussion happen starting in 
2019.
    Mr. Wittman. Yeah. I think that is critical. And we would 
like to continue the discussion with you and see a concrete 
proposal for 2019. I think we have to do more than just look at 
it at that particular point.
    Hopefully what we look at over the next year, then we can 
work with you and have a concrete proposal in 2019 for the 
Ready Reserve Force, because my concern in talking with General 
McDew and others is that our capacity there and ability to 
sustain in a major conflict is really being stretched to the 
point where I think it becomes strategically problematic.
    Ms. Stiller. Yes, sir. We will work with you.
    Mr. Wittman. Very good. Thank you so much.
    Any other questions from the subcommittee? If not, we are 
adjourned.
    [Whereupon, at 3:37 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                              May 24, 2017
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 24, 2017

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
  
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              May 24, 2017

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 24, 2017

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. LANGEVIN

    Admiral Lescher. Studies and preliminary assessments on the 
feasibility to integrate Electro-Magnetic Rail Gun (EMRG) on US Navy 
vessels include DDG 51 Flt IIA, DDG 51 Flt III, CG, Littoral Combat 
Ship, LPD 17 and DDG 1000. The US Navy continues to assess options that 
would further reduce the size, weight, power, and cooling, as well as 
the cost of critical EMRG sub-systems to better inform the evaluation 
of ship classes that could serve as platforms for future EMRG. This 
data will be included as part of the Analysis of Alternatives for the 
Future Surface Combatant.   [See page 26.]

                                  [all]
                                  
                                  
                                  
                                  
</pre></body></html>
